                                                                                                                          June 6, 2014

Mr. William Hammink
USAID Mission Director for Afghanistan


Dear Director Hammink:

The United States and other donor countries have reportedly invested $4 billion in Afghan roads. As
you know, the United States provided a significant proportion of those funds. USAID alone invested
over a billion dollars in road projects in addition to hundreds of millions of dollars provided by the
Department of Defense (DOD). Following conversations that I had during my trip to Afghanistan last
fall, I’m concerned that the U.S. government may be supporting road projects in Afghanistan that will
be unsustainable due to not being properly maintained.

In Kabul, a senior U.S. government official expressed his misgivings to me regarding the efficacy of
U.S. and Afghan road maintenance efforts and stated that he believed maintenance problems pose
a major challenge to the sustainability of Afghanistan’s transportation network. A recent report in the
Washington Post stated that Highway 1, a critical piece of Afghanistan’s transport infrastructure, is
nearly impassible at certain points due to damage caused by insurgent activity, coupled with a lack
of road maintenance by the Afghan government. 1 It’s reported that this road was built by U.S. and
coalition partners at a cost of approximately $3 billion. The Washington Post article stated that
USAID ceased funding Afghan government road maintenance programs in 2012, when the agency
determined that Afghan government’s road maintenance efforts were inadequate.

I am concerned that roads built at great risk and expense by the U.S. and other donors are not and
will not be properly maintained. I’m also troubled by reports that roads are still being built in
Afghanistan despite the apparent shortage of effective maintenance plans or capacity.

To provide SIGAR with a better understanding of the status of U.S.-funded road projects in
Afghanistan and the plans to sustain them, please provide a response to the attached questions, no
later than June 27, 2014. Should you have any questions about this request, please contact Mr. Jack
Mitchell, Director, Office of Special Projects, at              or                               .

                                                                                        Sincerely,



                                                                                        John F. Sopko
                                                                                        Special Inspector General
                                                                                          for Afghanistan Reconstruction

Enclosure I: Questions Regarding Maintenance of U.S.-funded road projects


1   Kevin Sieff, “After Billions in U.S. Investment, Afghan Roads Are Falling Apart,” Washington Post, January 30, 2014
ENCLOSURE I: QUESTIONS REGARDING MAINTENANCE OF U.S.-FUNDED ROAD
PROJECTS

1) USAID signed a contract in 2007 with the Louis Berger Group/Black and Veatch Joint Venture
   (activity code: 306-I-14-06-00517) with the activity name “Roads Operation and Maintenance
   Capacity Building.” As part of this activity, USAID intended to establish a Road Maintenance Unit
   (RMU) to conduct quality assurance monitoring on road operation and maintenance activities to
   ensure local subcontractors are meeting the prescribed level of service.

    a) Is the RMU currently operational? Where does that office reside in the Afghan government?

    b) Has the RMU effectively provided quality assurance monitoring of maintenance and
       operation of roads in Afghanistan built with U.S. and donor funding?


2) The Washington Post article stated that USAID ceased funding Afghan government road
   maintenance programs in 2012, when the agency determined that Afghan government
   maintenance efforts were ineffective.

    a) Did USAID stop funding road maintenance projects in Afghanistan as reported?

    b) How has USAID funded Afghan government road maintenance programs in the past? Was it
       on- or off-budget?

    c) What is the status of Afghan road maintenance efforts since U.S. funding was stopped?

    d) Have alternative road maintenance funding sources been developed? If so, please identify
       them.


3) What are the plans for maintaining roads now being built or planned for the future in
   Afghanistan?




SIGAR-14-64-SP Inquiry Letter: Maintenance of USAID-Funded Roads                               Page 2
